  BEST PRACTICES FOR IMPROVING
OVERSIGHT OF STATE HIGHWAY SAFETY
           PROGRAMS
   National Highway Traffic Safety Administration

           Report Number: MH-2008-046
           Date Issued: March 25, 2008
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Best Practices for Improving                                                   Date:        March 25, 2008
           Oversight of State Highway Safety Programs
           National Highway Traffic Safety Administration
           Report No. MH-2008-046
  From:    Rebecca Anne Batts                                                                          Reply to
                                                                                                       Attn. of:         JA-40
           Assistant Inspector General
             for Highway and Transit Audits
    To:    National Highway Traffic Safety Administrator

           This report presents the results of the Office of Inspector General’s (OIG) audit of
           the National Highway Traffic Safety Administration’s (NHTSA) oversight of state
           highway safety programs. This audit was required by the Safe, Accountable,
           Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-
           LU). 1 Our audit objective was to evaluate NHTSA’s oversight of state highway
           safety programs and identify best practices.

           NHTSA is the lead agency responsible for reducing fatalities, injuries, and
           economic losses resulting from motor vehicle crashes. In keeping with this
           mission, NHTSA’s fiscal year (FY)
                                                        Figure 1. Motor Vehicle Fatalities (2001-2006)
           2008 budget provided nearly
           $600 million in formula and incentive                                   2006                                                      42,642


           grants to the states for improving                                      2005                                                                        43,443
           highway safety.
                                                                                   2004                                                         42,836
                                                                        Calendar
                                                           2
           From 2001 through 2006, the                                    Year
                                                                                   2003                                                          42,884

           highway fatality rate declined
                                                                                                                                                      43,005
           6.6 percent, from 1.51 deaths to                                        2002



           1.41 deaths per 100 million vehicle                                     2001                                           42,196

           miles traveled. 3 However, as figure 1                                    40,000   40,500   41,000   41,500   42,000     42,500      43,000     43,500       44,000
                                                                                                                     Fatalities
           shows, the actual number of fatalities                                                               Source: NHTSA data

           increased by 1 percent, from
           1
               Section 2008(d), Pub. L. No. 109-59 (2005).
           2
               Throughout this report, unless otherwise indicated, calendar year data are reported.
           3
               Fatality rates are computed by dividing the number of fatalities by vehicle miles traveled.
                                                                                                                 2


42,196 in 2001 to 42,642 in 2006. NHTSA estimates that motor vehicle crashes
cost the United States about $230 billion annually. Given these statistics, it is
crucial that NHTSA provide strong oversight to ensure that limited grant funds are
used effectively to maximize highway safety.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States. Exhibit A contains details on the objective, scope, and
methodology we used in conducting this audit.

BACKGROUND
NHTSA provides highway safety formula and incentive grants to state and local
governments for conducting highway safety programs, including the promotion of
seat belt use, the discouragement of alcohol-impaired driving, and a variety of
other issues. States allocate the grant funds to the government agencies (both state
and local) and nonprofit organizations that implement behavioral highway safety
programs. The grants provide funds to identify highway safety problems and to
implement safety programs. Because Federal regulations hold each state
responsible for developing individual performance measures, NHTSA cannot
mandate that states adopt any specific performance measure.

Each state must submit to NHTSA an annual performance plan and a highway
safety plan that establish the state’s safety goals and performance measures and
identify the projects and activities designed to help achieve the safety goals. 4
Using the performance measures identified in the annual performance plan, states
are required to submit end-of-year performance reports to NHTSA describing their
progress in meeting safety goals. NHTSA conducts annual program reviews of
states’ safety performance plans and highway safety plans to assess whether each
state has identified measurable safety goals, programmed grant funding for safety
programs and projects, and made progress in attaining stated performance goals.

In addition to annual program reviews, SAFETEA-LU requires that NHTSA
conduct triennial management reviews of each state’s highway safety program.5
Based on the management reviews, NHTSA recommends improvements for the
management and oversight of Federal grant funds. A management review focuses
on a state’s organization and staffing, financial management, and program
management practices. NHTSA conducted its first triennial management reviews
in FY 2005. It also conducts special management reviews when a state


4
    23 C.F.R. § 1200.10 (2007).
5
    Prior to implementing its management reviews in FY 2005, NHTSA performed similar triennial reviews, known as
    “460-1” reviews. This review process started in 1970 and was revised in 1980 and 1989. In 1996, with the change
    to a performance-based process, the 460-1 review became an optional service provided upon a state’s request.
                                                                                                         3


demonstrates substandard performance and lack of progress in meeting
performance goals for seatbelt or alcohol-impaired driving programs.

RESULTS IN BRIEF
NHTSA has developed detailed guidelines and procedures for oversight reviews of
state highway safety programs. Although NHTSA’s management reviews
assessed the program elements required by its guidance, we identified weaknesses
in NHTSA’s annual program reviews that made it difficult for NHTSA to
comprehensively assess whether states were on course to meet their safety goals.
Specifically, NHTSA’s program reviews did not sufficiently (1) ensure that states
consistently measured performance, (2) assess states’ reporting of performance
trends, and (3) analyze states’ long-term progress in meeting safety goals.

NHTSA’s annual program reviews did not sufficiently assess states’ safety
performance. To ensure that states use grant funds wisely, NHTSA must
determine which safety programs are most effective in enhancing highway safety.
NHTSA regularly updates a guide 6 for states that provides science-based traffic
safety countermeasures. However, NHTSA’s annual program reviews could not
effectively monitor states’ safety performance because state performance plans
and reports did not provide comprehensive data and analysis. As a result, NHTSA
did not:

      • Ensure that states consistently measured performance. Over 56 percent of
        the performance measures we reviewed in state performance plans either
        did not match those in corresponding performance reports or had targets
        that were not measurable. For example, a state’s performance plan
        measured the number of alcohol-related fatal crashes but its corresponding
        performance report measured the alcohol-impaired fatality rate. The lack of
        consistent measures made it difficult for NHTSA to monitor the state’s
        progress in reaching its goal.

      • Assess states’ reporting of performance trends. States provided trend data
        for performance measures, but did not project current trend lines to
        upcoming target milestones. For example, one state set a goal to reduce the
        percentage increase in fatalities by 2008. The state reported fatality trend
        data through 2004, but did not project the trend line through 2008 to show
        whether it could meet the goal. Our analysis showed that the state was not
        on track to meet its goal. Without trend projections, NHTSA’s ability to
        assess states’ performance was limited.



6
    Countermeasures That Work: A Highway Safety Countermeasure Guide for State Highway Safety Offices.
                                                                                   4


   • Analyze states’ overall progress in meeting safety goals. NHTSA’s
     program review letters to the states commented on 1-year changes in
     overall fatalities, alcohol-related fatalities, and seatbelt use. By focusing on
     1-year changes and excluding longer range trends, NHTSA missed an
     opportunity to comprehensively evaluate long-term performance progress.

It is essential that states provide NHTSA with comprehensive data and analysis in
order for NHTSA to assess states’ progress in meeting safety goals. Although
states have the autonomy to formulate performance measures and plans tailored to
their specific needs, NHTSA must ensure that state performance is effectively
reported.

NHTSA should adopt best practices to improve its grant oversight. NHTSA
must ensure that Federal grant funds are targeted to programs and projects that are
most likely to improve highway safety. We identified opportunities for NHTSA to
better measure the results of its grant programs and enhance the accountability for
grant funds. Specifically, NHTSA should:

• Encourage states to adopt consistent performance measures. NHTSA, in
  collaboration with the Governors Highway Safety Association (GHSA),
  identified a set of measures to foster uniformity in planning and measuring
  performance, but states have not consistently adopted them. With consistent
  performance measures, NHTSA could better monitor states’ progress in
  implementing federally funded highway safety programs.

• Enhance accountability for Federal grant funds. Each year, NHTSA awards
  approximately $600 million in grants to the states for highway safety
  programs. NHTSA works with the states to provide grant management and
  oversight, and its management reviews have resulted in recommendations that
  states correct identified deficiencies in monitoring grantees. However,
  stronger internal control reviews and sample testing of grant expenditures by
  the states are needed to protect Federal grant funds.

• Electronically track recommendations to states. NHTSA’s regional offices
  tracked the states’ implementation of its recommendations through corrective
  action plans, but their efforts were limited by the manual method used to track
  the recommendations. A nationwide electronic tracking system would allow
  NHTSA to more efficiently share findings and recommendations with other
  regional offices, follow up on unresolved recommendations, and enhance
  quality control through automatic reminders of target action dates, custom
  management reports, and periodic status updates.
                                                                                                                    5


We made four recommendations that focused on the actions NHTSA needs to take
now to more effectively manage its grant funds to maximize highway safety. Our
full recommendations are listed on page 8.

In its March 6, 2008, written comments to our draft report, NHTSA concurred
with our four recommendations. NHTSA also provided an action plan to address
each of the recommendations. NHTSA’s comments and our response are fully
discussed on pages 9 and 10.           NHTSA’s written comments to our
recommendations are included in an appendix to this report.

FINDINGS

NHTSA Complied With Management Review Guidance, but Did
Not Sufficiently Assess States’ Safety Performance
In April 2003, the Government Accountability Office (GAO) recommended that
NHTSA develop guidance on using management reviews to assist states with
highway safety programs. 7 In response to this recommendation, NHTSA
developed detailed oversight guidance for conducting management reviews and
special management reviews of states’ highway safety programs. We verified that
NHTSA implemented the requirements prescribed by its management review
guidance and made constructive recommendations to states for improving grant
administration, financial accountability, and performance management. NHTSA
also addressed problems in the seatbelt and alcohol-impaired driving programs.
Exhibit B provides examples of NHTSA’s recommendations to the states.

Although NHTSA complied with its guidelines for management reviews, its
annual program reviews did not effectively monitor states’ safety performance
because state performance plans and reports did not provide comprehensive data
and analysis. Specifically, NHTSA did not:

      • Ensure that states consistently measured performance. States did not
        effectively match performance measures identified in performance plans
        with those in annual performance reports, as required.8 We found that over
        56 percent (183 of 326) of the performance plan measures we reviewed for
        22 judgmentally selected states did not match measures in annual reports or
        had targets that were not measurable.

           For example, for one state’s performance plan, none of the 12 measures we
           reviewed carried over to its annual report and 9 measures had no

7
    GAO Report No. GAO-03-474, “Highway Safety – Better Guidance Could Improve Oversight of State Highway
    Safety Programs,” April 21, 2003.
8
    23 C.F.R. §1200.33 requires that states submit to NHTSA annual performance reports that describe their progress in
    meeting safety goals by using performance measures identified in the annual performance plan.
                                                                                6


   measurable targets. Another state’s plan measured the actual number of
   alcohol-impaired driving fatal crashes, but its annual report measured the
   alcohol-impaired driving fatality rate per 100 million vehicle miles
   traveled. A third state’s plan did not include a performance measure for
   reducing the number of motorcycle fatalities. This state’s annual report
   included a general measure for reducing motorcycle fatalities but the
   measure did not identify a specific target. Measuring performance in this
   area is crucial as motorcycle fatalities have increased annually for several
   years, from 2,897 in 2000 to 4,810 in 2006.

   The measures that states use in performance plans and annual reports must
   be comparable for NHTSA to effectively analyze performance progress.
   Effective analysis would allow NHTSA and the states to adjust funding
   toward safety programs that have proven to be effective.

• Assess states’ reporting of performance trends. State performance plans
  and progress reports provided trend data for several performance measures,
  but 20 of 22 judgmentally selected states did not project trend data to
  upcoming target milestones to demonstrate whether the states are on track
  to meet goals. For example, one state set a goal to limit the percentage
  increase in fatalities to less than the percentage increase in vehicle miles
  traveled and population in 2008. In its annual report, the state provided
  trend data on fatalities through 2004, the latest year for which data were
  available, but did not project the trend line through 2008 to show whether it
  could meet the stated goal. Our analysis found that the state was not on
  track to meet its goal.

   Another state set a goal of no more than 70 fatalities in 2008. In its annual
   report, the state provided trend data on fatalities through 2004, but did not
   project the trend line through 2008. The trend line showed that fatalities
   steadily increased in excess of 80 fatalities during the years 2000 through
   2004, an indication that the state was not on track to meet its 2008 goal of a
   maximum of 70 fatalities. Our analysis shows that a trend projection would
   be an effective tool to show states’ progress toward meeting their safety
   goals.

• Analyze states’ overall progress in meeting safety goals. NHTSA’s
  program review letters did not discuss the overall progress that states made
  toward meeting safety goals. The letters provided analysis of selected
  performance trends that focused primarily on 1-year increases or 1-year
  decreases in overall fatalities, alcohol-related fatalities, and seatbelt usage.
  NHTSA could provide more effective guidance to the states if the letters
  used long-term trend information to comprehensively evaluate, measure,
  and report on whether states are on track to achieve their safety goals.
                                                                                   7


      NHTSA issued revised guidelines to its regional offices to improve and
      standardize its program reviews, beginning with the FY 2007 reviews.
      Specifically, regional offices are to verify that states: (1) specify
      performance measures for each grant program, (2) link measures in the
      performance plan directly to the annual performance report, and (3) develop
      interim measures to indicate project or program success.              These
      improvements in the program reviews should help NHTSA and the states
      make prudent decisions on funding safety programs.

NHTSA Should Adopt Best Practices To Improve Its Oversight
of State Highway Safety Programs.
Through our observations of NHTSA’s programs and through discussion with
officials from other Federal agencies, we identified opportunities for NHTSA to
enhance the accountability over grant funds provided to the states and to better
measure the results of its grant programs. Specifically, NHTSA can:

   • Encourage states to adopt a uniform set of performance measures.
     NHTSA and GHSA designed a set of measures to foster uniformity in
     planning and measuring performance. These measures cover the number
     and rate of overall fatalities and injuries, alcohol-related fatalities, and use
     of seatbelts. However, the 22 states we reviewed collectively adopted only
     52 percent of the suggested measures in their performance plans and only
     73 percent of the measures in their performance reports. By coordinating
     with state and local governments to establish common performance
     measures, NHTSA can ensure that it receives the information it needs to
     oversee state performance. NHTSA could enhance comparability among
     states, better track the states’ progress in implementing the highway safety
     programs funded by Federal grants, and target limited grant funds to safety
     programs that result in measurable success.

   • Enhance protections against potential fraud. To improve accountability
     over approximately $600 million in annual formula and incentive highway
     safety grant funds, NHTSA and the states must improve their oversight to
     prevent and detect fraud, waste, and abuse. In accordance with Federal
     regulations, states must monitor grantees’ program performance to ensure
     compliance with Federal requirements.            NHTSA conducts project
     monitoring and management reviews to ensure that grant funds are used for
     eligible program and project activities, and its oversight includes limited
     testing of grantee expenditures. NHTSA has made recommendations for
     states to correct deficiencies in monitoring grantees.

      During the past 5 years, at least three OIG investigations of false claims for
      overtime and embezzlement of grant funds resulted in convictions or
                                                                                   8


       administrative action. For example, an OIG investigation found that four
       police officers submitted false documents to receive payment for work not
       performed.      Two other investigations resulted in convictions for
       embezzlement from highway safety grants that resulted in $119,000 in
       recoveries. In our opinion, highway safety grant programs would be less
       vulnerable to fraud, waste, and abuse if NHTSA ensured that states
       comprehensively reviewed sub-grantee internal controls and conducted
       sample tests of grant expenditures.

   • Implement a system to electronically track NHTSA’s recommendations to
     states. NHTSA’s regional offices monitor states’ implementation of
     management review recommendations through corrective action plans
     agreed upon by the regional offices and the states, but its efforts were
     limited by the manual method used to track the recommendations.

       NHTSA could improve its oversight by implementing a nationwide
       electronic tracking system. By using the system to monitor state corrective
       action plans, NHTSA’s regional offices could: (1) efficiently share
       recommendations with other regional offices to identify solutions for states
       with similar issues, (2) improve accounting for the disposition of
       recommendations to ensure follow-up for unresolved items during
       subsequent reviews, and (3) enhance quality control through automatic
       reminders of target action dates and the development of custom
       management reports and periodic status updates.

RECOMMENDATIONS

We recommend that NHTSA:

1. Promote the development and adoption of consistent performance measures.

2. Provide guidance to the states to ensure that state performance reports include
   projected trend lines to allow a determination of whether the state is on track to
   meet highway safety goals.

3. Encourage states to conduct comprehensive on-site reviews of grantee internal
   controls over grant expenditures, substantive testing of grant expenditures, or
   other procedures designed to prevent and detect fraud, waste, and abuse.

4. Implement an electronic tracking system for monitoring the disposition of
   oversight recommendations to the states in order to efficiently share finding
   information, follow-up on unresolved recommendations, and enhance quality
   control.
                                                                              9


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
In its March 6, 2008, written comments to our draft report, NHTSA concurred
with our four recommendations and provided an action plan to address each of the
recommendations. In its response, NHTSA also requested that we clarify some
areas in our report. We incorporated NHTSA’s suggested changes, as appropriate.
NHTSA’s written comments to our recommendations are included as an appendix
to this report.

NHTSA concurred with our recommendations and agreed to take the following
actions.

   • For recommendation 1, NHTSA initiated a project, in conjunction with
     GHSA, to develop consensus traffic safety performance measures. The
     final report is due to NHTSA in August 2008. NHTSA plans to ensure that
     states incorporate the performance measures into their highway safety
     plans, starting with the FY 2010 plans. NHTSA also plans to increase its
     efforts to align states’ annual performance reports with the performance
     measures and projected targets in the highway safety plans.

   • For recommendation 2, NHTSA stated that it will encourage states to use
     trend line projections in highway safety plans, starting with the FY 2010
     plans. Currently, NHTSA offers a data analysis course to both Federal and
     state employees. Offered through the Transportation Safety Institute, the
     course includes training in the use of trend lines. NHTSA will also ask its
     data contractors to assist states in trend line development and analysis.

   • For recommendation 3, NHTSA stated that it will monitor state grantees
     and oversee the states’ monitoring of sub-grantees, including selective
     grantee on-site reviews. In February 2008, NHTSA reinforced this process
     by issuing new regional monitoring guidelines. NHTSA further stated that
     its focus is on program performance and grant compliance, not financial
     auditing practices.

   • For recommendation 4, NHTSA stated that it will search for a reasonably-
     priced project management tracking system that will meet its needs. Until
     it locates an appropriate system, NHTSA will continue to use Microsoft
     Excel spreadsheets for tracking state-by-state information on findings,
     management considerations, corrective action plans, and performance
     enhancement plans. It plans to post the spreadsheets for all states on its
     Intranet by the end of calendar year 2008. NHTSA believes that the
     spreadsheets will provide a cost-effective method of sharing findings and
     enhancing quality control across all its regional offices.
                                                                            10


We consider NHTSA’s planned actions for our four recommendations to be
responsive; and therefore, consider the recommendations resolved. We will,
however, continue to monitor the status of NHTSA’s implementation of our
recommendations, and the recommendations will remain open until NHTSA
completes its proposed actions.

We appreciate the courtesies and cooperation of NHTSA representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Kerry R. Barras, Program Director, at (817) 978-3318.

                                      #

Attachment
                                                                                 11



EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our audit objective was to evaluate NHTSA’s oversight of state highway safety
programs and identify best practices. We determined whether NHTSA developed
and followed policies and procedures for conducting management reviews and
special management reviews. Further, we determined the extent to which
NHTSA’s annual program reviews addressed states’ safety performance measures.
We also identified best practices for improving NHTSA’s oversight of state
highway safety programs.

This performance audit was conducted from May 2006 through December 2007.
We conducted our work in accordance with Generally Accepted Government
Auditing Standards prescribed by the Comptroller General of the United States.
We performed such tests of internal controls as we considered necessary to detect
fraud, waste, and abuse. Our review of internal controls included a discussion
with NHTSA officials and observations of its procedures for assessing states’
controls over grant funds and its sample testing of the reliability and integrity of
states’ expenditures of grant funds.

To accomplish our audit objective, we:

   • interviewed officials from NHTSA Headquarters in Washington, D.C. and
     NHTSA regional offices in Cambridge, Massachusetts; Baltimore,
     Maryland; Fort Worth, Texas; and San Francisco, California.

   • interviewed the consultant hired by NHTSA regarding efforts to assist the
     development of NHTSA’s oversight procedures and guidelines, train
     NHTSA’s regional office staff on conducting management reviews and
     special management reviews, and ensure that NHTSA’s guidelines were
     consistently applied.

   • interviewed selected state and non-profit organization officials regarding
     NHTSA’s management review process.

   • interviewed officials from GAO and the Departments of Education, Health
     and Human Services, Housing and Urban Development, and Transportation
     regarding best practices for grant oversight reviews.

   • reviewed NHTSA’s Management Review Process Resource Manual to
     identify its policies, procedures, and guidelines for conducting management
     reviews and special management reviews. This manual documented
     20 required elements for management reviews and 6 elements for special
     management reviews, which we used as criteria for determining NHTSA’s
     compliance with its own policies and procedures.

Exhibit A. Objective, Scope, and Methodology
                                                                             12


  • accompanied NHTSA teams to observe management reviews in Vermont
    and Louisiana and special management reviews in Idaho and Arkansas.

  • judgmentally selected and reviewed supporting documentation for 11 of
    22 management reviews and 6 of 11 special management reviews NHTSA
    completed as of February 2007 to determine whether NHTSA addressed the
    required management review and special management review program
    elements. We selected the reviews completed by NHTSA region 3 (mid-
    Atlantic) and region 6 (south central) because of their geographic proximity
    to OIG Headquarters and field offices. We also selected reviews completed
    by the NHTSA region 9 (western) to provide coverage of western states.
    We reviewed the reports for 22 judgmentally selected management reviews
    and 11 judgmentally selected special management reviews to determine
    whether NHTSA made constructive recommendations for improving safety.

  • reviewed supporting documentation for NHTSA program reviews and
    compared state performance plans and annual performance reports for
    22 judgmentally selected states. We selected states that were in the
    jurisdiction of the NHTSA regions we visited and to provide a cross-section
    of states that received various amounts of highway safety funding. We
    assessed the plans and reports for the effectiveness of performance
    reporting, alignment of performance measures between the performance
    plans and annual reports, evidence that states projected performance trends
    to goal milestones, comprehensive evaluation and reporting of state safety
    performance, and state adoption of GHSA performance measures.

  • consulted with our criminal investigative staff to identify cases of grant
    fraud. We also interviewed NHTSA regional personnel during site visits
    regarding grantee fraud.




Exhibit A. Objective, Scope, and Methodology
                                                                            13



EXHIBIT B. EXAMPLES OF NHTSA’S RECOMMENDATIONS TO
THE STATES
NHTSA made constructive recommendations to the states to improve grant
administration, program management, financial accountability, and the
administration of the seatbelt and alcohol-impaired driving programs. Selected
examples of these recommendations follow.

Management Review Recommendations
• Strengthen controls for equipment purchases to ensure proper accounting and
  inventory. This recommendation was made in 12 of 22 management reviews
  completed as of February 2007. For example, one grant lacked documentary
  support for expenditures on five blood alcohol content machines and software
  valued at approximately $113,000.

• Improve project monitoring and develop written policies and procedures to
  ensure sub-grantees’ compliance with laws, regulations, and grant agreements.
  This recommendation was made in 18 of 22 management reviews. For
  example, 42 percent of grants reviewed for one state had no evidence that the
  state performed monitoring of the sub-grantees.

• Promptly spend grant funds in the year received. This recommendation was
  made in 9 of 22 management reviews completed as of February 2007. For
  example, NHTSA found that one state spent only 25 percent of the funds
  received, compared to the normal 75 percent spending rate.

Special Management Review Recommendations
• Create an environment conducive for passing a primary seatbelt law by
  communicating the benefits to the public and to the state legislature.

• Request an assessment of the state’s occupant protection program to identify
  best practices and recommend improvements for increasing seatbelt use.

• Hire a law enforcement liaison to assist in developing local projects and to
  coordinate with local law enforcement agencies.

• Focus on concentrated enforcement and publicity for alcohol-impaired driving
  programs, mirror national priorities to curb impaired driving, and actively
  promote the annual crackdown to ensure that at least 65 percent of the
  population is covered by sustained enforcement activities.




Exhibit B. Examples of NHTSA’s Recommendations to the States
                                                        14



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.

   Name                             Title

   Kerry R. Barras                  Program Director

   Craig A. Owens                   Senior Analyst

   Alvin B. Schenkelberg            Senior Auditor

   Stuart I. Weibel                 Senior Auditor

   Farrin Tamaddon                  Analyst

   Harriet E. Lambert               Writer-Editor

   Petra Swartzlander               Statistician




Exhibit C. Major Contributors To This Report
                                                                                                 15




APPENDIX. NHTSA COMMENTS



                                                 Memorandum
U.S. Department
of Transportation
National Highway
Traffic Safety
Administration



Subject:    Corrective Action to Draft Report                    Date:
            on Best Practices For Improving
            Oversight of State Highway
            Safety Programs

            [Signed on March 6, 2008]
  From:     James F. Ports, Jr.                                   Reply to   Kerry R. Barras
             Deputy Administrator                                 Attn.      Office of the Inspector
             X62775                                                          General
                                                                             (817)978-3318

   To:      Rebecca Anne Batts
            Assistant Inspector General for
            Highway and Transit Audits


Attached are the National Highway Traffic Administration (NHTSA) proposed responses and
corrective actions to address the four recommendations in the Office of the Inspector
General’s recent Audit of the NHTSA’s Best Practices For Improving Oversight of State
Highway Safety Programs, forwarded to us on February 7, 2008.

NHTSA looks forward to continue working with the States to establish programs that will
decrease fatalities and injuries on the Nations roadways.

Additionally, we have some proposed changes to the text of the report, which is also attached. If
you have any questions on this response, please contact Antonyio Johnson, our OIG Liaison at
X6-1490.

Attachments




APPENDIX. NHTSA COMMENTS
                                                                                  16



     NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
              RESPONSE TO OIG DRAFT REPORT

TITLE: Audit of the National Highway Traffic Safety Administration’s Best
Practices for Improving Oversight of State Highway Safety Programs.
PROJECT NUMBER: 06M3002M000.

     NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
                  CORRECTIVE ACTIONS

NHTSA provides highway safety formula and incentive grants to States to
establish programs that will decrease fatalities and injuries on the Nations
roadways. As a requirement of receiving funds, States must submit annual
performance and highway safety plans that discuss annual and long term goals,
define performance measures and identify projects. At the end of each fiscal year
an annual report must be submitted to NHTSA that describes progress toward
meeting the annual goals. To assist States with this process, NHTSA reviews and
comments on the above documents and conducts monitoring no less than
quarterly. In addition, management reviews (MR) that look at organization and
staffing, program management and fiscal management are conducted triennially
and special management reviews (SMR) are conducted with those States
demonstrating below average performance. We do not conduct audits. .

NHTSA generally concurs with the OIG recommendations. However, NHTSA
works in an environment where we have been criticized for being over
prescriptive, and therefore we work to strike a balance between guidance that
ensures compliance with Federal regulations and sound management practices
while at the same time allowing States the freedom to identify develop, manage,
and evaluate their own traffic programs.


Recommendation 1: Promote the development and adoption of consistent
performance measures.

Response: Concur.

Corrective Action 1: NHTSA, in conjunction with the Governors Highway
Safety Association, has initiated a project to develop consensus traffic safety
performance measures. The final report is due to NHTSA in August of 2008, and
then NHTSA will encourage States to incorporate the performance measures into
their Highway Safety Plans (HSPs), beginning with the FY 2010 plans. We will



APPENDIX. NHTSA COMMENTS
                                                                                  17


also redouble our efforts to align States’ annual performance reports with the
performance measures and projected targets in their HSPs.

Recommendation 2: Provide guidance to States to ensure that State performance
reports include projected trend lines to allow a determination of whether the State
is on track to meet highways safety goals.

Response: Concur.

Corrective Action 2: While NHTSA has no statutory authority to compel States
to use trend line projections, we will encourage States to use trend line projections
in HSPs starting with their FY 2010 plans. Currently NHTSA offers to both State
and Federal employees a Data Analysis Course (which includes training in the use
of trend lines) through the Transportation Safety Institute. NHTSA will also ask its
data contractors to assist States in trend line development and analysis.

Recommendation 3: Encourage States to conduct on-site comprehensive reviews
of grantee internal controls over grant expenditures, substantive testing of grant
expenditures, or other procedures designed to prevent and detect fraud, waste and
abuse.

Response: Concur.

Corrective Action 3: NHTSA Regional offices currently monitor State grantees
and monitor how States monitor sub-grantees, including selective on-site reviews.
This process was just reinforced with the issuance of new Regional Monitoring
Guidelines in February 2008. However, the agency focus is on program
performance and grant compliance, not financial auditing practices.

Recommendation 4: Implement an electronic tracking system for monitoring the
disposition of oversight recommendations to States in order to efficiently share
finding information, follow-up on unresolved recommendations and enhance
quality control.

Response: Concur

Corrective Action 4: NHTSA is currently researching project management
tracking systems and available technologies. We are currently unaware of any
reasonably-priced system that will meet the agency’s needs, but will continue to
explore options. As an interim measure, NHTSA will continue to use excel
spreadsheets for tracking State by State information on findings, management
considerations, corrective action plans and performance enhancement plans.
However, the spreadsheets for all States will be posted on our intranet by the end


APPENDIX. NHTSA COMMENTS
                                                                              18


of calendar year 2008, so all employees have access to the information. The
Agency feels this is a cost effective way to share MR and SMR findings and
enhance quality control across the Nation.




APPENDIX. NHTSA COMMENTS
The following page contains a textual version of the figure found in this document.
This page was not in the original document but has been added here to
accommodate assistive technology.
 Best Practices for Improving Oversight of State Highway Safety Programs



Figure 1: Motor Vehicle Fatalities (2001-2006)

The figure is a bar chart showing the number of motor vehicle fatalities by
calendar year from 2001 through 2006.

2006                   42,642
2005                   43,443
2004                   42,836
2003                   42,884
2002                   43,005
2001                   42,196
Source: NHTSA data.
